<html>
<title> - AMERICA'S NEW WELCOME MAT: A LOOK AT THE GOALS AND CHALLENGES OF THE US-VISIT PROGRAM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 AMERICA'S NEW WELCOME MAT: A LOOK AT THE GOALS AND CHALLENGES OF THE 
                            US-VISIT PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2004

                               __________

                           Serial No. 108-154

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-170                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2004....................................     1
Statement of:
    Hutchinson, Asa, Under Secretary for Border and 
      Transportation Security, Department of Homeland Security; 
      and Maura Harty, Assistant Secretary for Consular Affairs, 
      Department of State........................................     7
    Plavin, David Z., president, Airports Council International-
      North America, representing Airports Council International-
      North America and American Association of Airport 
      Executives; Randel K. Johnson, vice president for Labor, 
      Immigration and Employee Benefits, U.S. Chamber of 
      Commerce; Jessica Vaughan, senior policy analyst, Center 
      for Immigration Studies....................................    70
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................   144
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   148
    Davis, Chairman Tom Davis, a Representative in Congress from 
      the State of Virginia, prepared statement of...............     4
    Harty, Maura, Assistant Secretary for Consular Affairs, 
      Department of State, prepared statement of.................    49
    Hutchinson, Asa, Under Secretary for Border and 
      Transportation Security, Department of Homeland Security, 
      prepared statement of......................................    10
    Johnson, Randel K., vice president for Labor, Immigration and 
      Employee Benefits, U.S. Chamber of Commerce, prepared 
      statement of...............................................    86
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............   152
    Plavin, David Z., president, Airports Council International-
      North America, representing Airports Council International-
      North America and American Association of Airport 
      Executives, prepared statement of..........................    73
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........   153
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   155
    Vaughan, Jessica, senior policy analyst, Center for 
      Immigration Studies, prepared statement of.................   132

 
 AMERICA'S NEW WELCOME MAT: A LOOK AT THE GOALS AND CHALLENGES OF THE 
                            US-VISIT PROGRAM

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Schrock, 
Duncan, Turner, Maloney, Tierney, Clay, Watson, Van Hollen, 
Ruppersberger, and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director and communications director; Drew 
Crocket, deputy communications director; David Young, counsel; 
John Cuaderes, professional staff member; Jason Chung, 
legislative assistant; Teresa Austin, clerk; Brien Beattie, 
deputy clerk; Michael Yeager, minority deputy chief counsel; 
Denise Wilson, minority professional staff member; Cecelia 
Morton, minority office manager; and Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. Good afternoon. A quorum being present, 
the Committee on Government Reform will come to order.
    We meet today to look into the implementation of the US-
VISIT program by the Department of Homeland Security. US-VISIT 
stands for the U.S. Visitor and Immigrant Status Indicator 
Technology Program. When completed the program will track the 
entry and exit of most non-immigrant visa holders who enter the 
United States. At the outset it is important to acknowledge the 
scope of this undertaking.
    In 2003 there were over 427 million inspections at U.S. 
ports of entry. Of these inspections, 62 percent involved 
people from other countries. There are over 300 land, air, and 
seaports of entry in the United States, from Dulles 
International Airport to the land crossing at Del Rio, TX.
    The vast majority of these inspections, 79 percent, take 
place at land border crossings. Unfortunately, it is at these 
crossings where the constraints of space and time combine to 
place a potentially dangerous burden on legitimate travelers to 
the United States. Even though only 18 percent of all travelers 
seek entry at airports, the interrelated nature of our domestic 
hub system creates special problems for airports as well.
    At the same time, the implementation of US-VISIT thus far 
has not resulted in significant waiting time increases for the 
traveling public. Although these efforts have achieved some 
success and government agencies are enthusiastically looking 
for feedback in improving technology and management methods, 
US-VISIT faces immense challenges as additional consular posts, 
land border crossing points, and exit points begin to collect 
biometric data.
    Some would say the risks associated with these challenges 
suggest that this sort of nationwide integrated reform of our 
border control system is too ambitious. But those people 
underestimate the damage even one more terrorist event like 
September 11th could cause our Nation. People want to do 
business here because we provide a safe and stable commercial 
environment. Providing and maintaining this environment is one 
of the most important things this government can do.
    Having said that, there are legitimate questions Congress 
should ask about the planning, acquisition, and implementation 
of US-VISIT. First, we would like an update on the effects of 
the Increment I implementation for entry at airports to date. 
Second, it would be helpful to have a brief description of the 
acquisition strategy you have put in place. It would be helpful 
to understand how DHS and the Department of State are working 
together to create an integrated visa issuance and border 
verification system that leverages all of the information 
gained at both the consulate and border.
    This committee is also interested in how both DHS and the 
State Department are reaching out to domestic and foreign 
stakeholders. Is DHS applying the lessons learned from the TSA 
baggage screening implementation as it plans for the exit 
function of the US-VISIT program? How are DHS and State 
informing and educating the foreign business community about 
US-VISIT?
    The multitude of questions surrounding this implementation 
creates a nexus of issues that the Committee on Government 
Reform is uniquely positioned to discuss. The need for the 
various related agencies involved to not only cooperate but to 
allow their internal data bases to talk to each other on a 
minute-by-minute basis worldwide marks a new standard for 
interagency collaboration. The effort to use next generation 
technologies in a real world environment is both laudable and 
worthy of study. Can DHS institute a system that works today 
and will be flexible to change in the coming years? Is DHS' 
acquisition plan and schedule reasonable and realistic? Can 
government effect a nationwide integration while truly 
exploring and identifying the best solution possible?
    As the Nation anticipates the next phases of DHS' US-VISIT 
program, we need to recognize that this new system is being 
implemented in a time when this Nation faces a continuing 
terrorist threat. Today's terrorists have decided to engage in 
asymmetrical warfare by attacking our people and institutions 
instead of our military. Simply following the old best 
practices model will not provide an effective defense of our 
homeland. As a Congress we have to give our most talented 
Federal employees the authority to tear down stovepipes and 
create a flexible, scaleable solution for tracking activity at 
our Nation's borders. This is a monumental task, and there is 
no room for error.
    We welcome today the Honorable Asa Hutchinson from the 
Department of Homeland Security and the Honorable Maura Harty 
from the Department of State. We also have a second panel, 
which I will introduce later. We believe all of these witnesses 
will provide the committee with a diverse set of opinions and 
viewpoints, and I very much look forward to today's hearing.
    I now yield to any other Members who wish to make opening 
statements. The gentlelady from the District of Columbia, Ms. 
Norton.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.001
    
    [GRAPHIC] [TIFF OMITTED] T4170.002
    
    Ms. Norton. Mr. Chairman, I appreciate this hearing. I am 
going to try to stay as long as I can, probably not the entire 
time. I do want to say that on my way to Guantanamo this past 
weekend we stopped in Miami and had the US-VISIT demonstrated 
to us. At one level, it is very impressive, putting your finger 
up and then a bunch of data is retrieved. We also saw foreign 
visitors who seemed to be getting through fairly quickly. We 
noted, though, that we were not at the height of the season 
when these foreign visitors come. The time it took was more 
than we were told it would. Nevertheless, when you see all the 
information come up quickly, it encouraged us.
    At the same time, obviously, it is the first time we have 
done this kind of intrusive investigation of people as they 
come in. The first thing that crossed my mind was that there 
would be visitors, particularly from Latin America or from 
Europe, who would find an easier way to get where they wanted 
to get. Many of our visitors come through the United States. I 
was concerned about that. My other concern would be whether we 
are going to make at the ports what we now have at the 
airports. We have not found a way to get around the long lines. 
We know it is necessary to look closely at people and at their 
luggage and everything they are carrying with them. We know 
that perhaps technology will get us to the point where that is 
done more efficiently and more quickly.
    Now that we are doing an analog of that at the ports, I 
think we have to be mindful of the concerns that we have had in 
our domestic airlines, and particularly when foreign visitors, 
who may be precisely the kind of visitors we want to come to 
this country with revenue from abroad and leaving here, may 
decide that we make it so difficult that there are other ways 
to get where they are going besides through the United States. 
At the same time, I am the first to say that these folks coming 
from abroad are the ones we want to look at more closely. So I 
do not envy those who have to come up with a system that both 
keeps us secure and makes sure that our enviable tourism and 
commerce proceeds as before. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Any other Members 
wish to make statements?
    [No response.]
    Chairman Tom Davis. If not, we will proceed to our first 
panel. As you know, it is the rule of the committee that I have 
to swear you in. Asa, let me just say welcome back to this 
committee. I will tell you I feel a lot better about the 
reorganization at DHS with Governor Ridge and having you there. 
We are very proud of the job you are doing there. So, welcome 
back. Ms. Harty, thank you for being with us as well.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. The record will 
reflect that both witnesses answered in the affirmative.
    Asa, we will start with you.

 STATEMENTS OF ASA HUTCHINSON, UNDER SECRETARY FOR BORDER AND 
 TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY; AND 
    MAURA HARTY, ASSISTANT SECRETARY FOR CONSULAR AFFAIRS, 
                      DEPARTMENT OF STATE

    Mr. Hutchinson. Thank you, Mr. Chairman. It is good to be 
with you and other members of the committee. Thank you for your 
leadership and partnership in this important effort. US-VISIT 
represents the greatest advance in border technology in three 
decades. It is a historic achievement in which we, for the 
first time in history, can use a biometric ability to confirm 
the identity of those traveling to our country with visas. The 
Department of Homeland Security deployed the first increment of 
US-VISIT on time, within budget, and has exceeded the mandate 
established by Congress. We also met the challenge that was 
given to us by Secretary Ridge to include biometrics ahead of 
schedule.
    US-VISIT also delivers the ability to have security without 
sacrificing the flow of legitimate travel through our borders. 
US-VISIT entry procedures are currently deployed at 115 
airports and 14 seaports. As of today, almost 2 million foreign 
visitors have been processed under the new US-VISIT entry 
procedures with no measurable increase in wait times. And even 
more importantly, we have prevented over 60 criminals from 
entering the country. Without the biometric capabilities US-
VISIT delivers, we would not have caught these people.
    We are currently meeting the deadline for exit as well. Our 
exit procedures are based upon passenger departure information 
shared with us by carriers. We match this information with the 
visa information and this allows us to identify visa overstays. 
We currently have, let me emphasize, the biographic data that 
will allow us to determine visa overstays. We want to be able 
to enhance this with the biometric feature and we are testing 
this with various pilots, one of them being at the Baltimore-
Washington International Airport.
    I think there is a PowerPoint presentation. But I want to 
explain how US-VISIT works. The biographic and biometric 
information is collected overseas at the visa issuing post and 
then verified at the port of entry. And from the standpoint of 
customs and border protection, the example I am using is a 
visitor who has had their finger scanned and digital photo 
taken at an overseas post.
    The visitor arrives at the inspection booth and provides 
their travel documents, passport and visa to the officer. The 
officer swipes the machine-readable part of the visa. The 
system immediately selects the correct files from the State 
Department's data base to display and this information is seen 
on the officer's monitor. The officer asks the visitor to place 
first their left index finger and then their right index finger 
on the finger scanner device that captures their finger scans. 
The officer then takes a digital photograph of the visitor. 
While the officer continues the entry questioning, the finger 
scans are compared against a criminal and terrorist watch list 
and the biographic and biometric data are matched against the 
data captured by the State Department. This ensures that the 
person entering the country is the same person who received a 
visa. In addition, the digital picture that was taken of the 
visitor at the visa issuing post is displayed on the 
inspector's screen for visual comparison.
    Of course, the biometric checking is only a tool that the 
officer uses to determine admissibility, not the entire 
process. And this biometric check through the select watch list 
takes a matter of seconds.
    When the system has completed its check, the officer sees a 
response that says either ``No Hit'' or ``Hit.'' If a ``No 
Hit'' is received, the officer completes the interview, updates 
the screen with the duration of the visitor's stay and, unless 
other questions arise, welcomes the visitor into the United 
States. The addition of biometrics collected abroad and 
verified at the port of entry is one of the many tools that 
Customs Border Protection Officers use to make their decision 
to admit a visitor into the country.
    Mr. Chairman, since the US-VISIT entry procedures were 
implemented, we have caught a fugitive who escaped from prison 
20 years ago. We have caught and extradited a felon who was 
wanted for manslaughter. We stopped a drug dealer who had 
entered our country more than 60 times in the past 4 years 
using different names and dates of birth. And just this Monday 
a woman attempted to enter through Puerto Rico and though there 
was a lookout for her in the Interagency Border Inspection 
System [IBIS], because she had a fairly common surname her 
biographic information did not give us a match, but the US-
VISIT biometric check allowed officers to confirm that she was 
the same person wanted in New Jersey for possession of stolen 
property. The US-VISIT biometric match also tied her to an 
additional 17 aliases and 7 different dates of birth. Her 
criminal history dates back to 1994 and includes multiple 
arrests in New York for larceny, in Maryland for theft, an 
arrest in New Jersey, I do not think I have covered all the 
States yet, but it was a very significant arrest record. She, 
of course, has been deported from the United States in 1998 and 
now is waiting extradition. It is important to note that this 
serves as a deterrent as the word goes out that we have this 
capability.
    Another huge accomplishment is that we have published a 
privacy policy and Privacy Impact Statement. And we have, in 
response to the question, worked very closely with the State 
Department. I want to compliment my partner, Maura Harty, 
Assistant Secretary at State, who has done such an outstanding 
job in developing this program in partnership with us. We also 
have worked with the airlines and airports and those in the 
private sector.
    But our job is not finished. We have submitted the 2004 
spending plan. And as has been expressed, one of the concerns 
is what are we going to do for the land borders. US-VISIT will 
apply to visitors with visas crossing our land borders just 
like our air and seaports. What is different from our air and 
seaports is that on the land borders the US-VISIT process of 
finger scanning and digital photo will be taken at the 
secondary inspection area and not primary. This is where 
visitors with visas go today so this is not a change. What is 
new is that our visitors will have their identity verified 
using US-VISIT procedures and this process will add up to less 
than 15 seconds to the overall secondary inspection. Again, the 
current process is for visitors with visas to go immediately to 
secondary inspection, so US-VISIT is not adding any time to the 
primary process.
    Our remaining issue is the 104 million Mexican citizens who 
are holders of border crossing cards. Mr. Chairman, on the 
chart that is over here you can see the breakdown by volume of 
those that are crossing our land borders: U.S. citizens, legal 
permanent residents, visa exempt, visa waiver, regular visa, 
and the Mexican border crossing card of 104 million, totaling 
440 million that come across our land borders. We have not made 
any final decisions in this regard on the border crossing 
cards, but obviously this presents a unique challenge to us 
that we will have to address.
    We also intend to look at radio frequency [RF] technology 
to aid in the processing of visitors across the land borders at 
the 50 busiest ports of entry and exit. We are optimistic that 
we can develop a procedure at our land borders that is just as 
accommodating and facilitating as what we have done at our air 
and seaports as well.
    I want to thank again this committee for its partnership in 
this endeavor. I look forward to answering questions. We are 
committed to building this system that adds to our security and 
ultimately will help us to facilitate those legitimate 
travelers into our country.
    [The prepared statement of Mr. Hutchinson follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.003
    
    [GRAPHIC] [TIFF OMITTED] T4170.004
    
    [GRAPHIC] [TIFF OMITTED] T4170.005
    
    [GRAPHIC] [TIFF OMITTED] T4170.006
    
    [GRAPHIC] [TIFF OMITTED] T4170.007
    
    [GRAPHIC] [TIFF OMITTED] T4170.008
    
    [GRAPHIC] [TIFF OMITTED] T4170.009
    
    [GRAPHIC] [TIFF OMITTED] T4170.010
    
    [GRAPHIC] [TIFF OMITTED] T4170.011
    
    [GRAPHIC] [TIFF OMITTED] T4170.012
    
    [GRAPHIC] [TIFF OMITTED] T4170.013
    
    [GRAPHIC] [TIFF OMITTED] T4170.014
    
    [GRAPHIC] [TIFF OMITTED] T4170.015
    
    [GRAPHIC] [TIFF OMITTED] T4170.016
    
    [GRAPHIC] [TIFF OMITTED] T4170.017
    
    [GRAPHIC] [TIFF OMITTED] T4170.018
    
    [GRAPHIC] [TIFF OMITTED] T4170.019
    
    [GRAPHIC] [TIFF OMITTED] T4170.020
    
    [GRAPHIC] [TIFF OMITTED] T4170.021
    
    [GRAPHIC] [TIFF OMITTED] T4170.022
    
    [GRAPHIC] [TIFF OMITTED] T4170.023
    
    [GRAPHIC] [TIFF OMITTED] T4170.024
    
    [GRAPHIC] [TIFF OMITTED] T4170.025
    
    [GRAPHIC] [TIFF OMITTED] T4170.026
    
    [GRAPHIC] [TIFF OMITTED] T4170.027
    
    [GRAPHIC] [TIFF OMITTED] T4170.028
    
    [GRAPHIC] [TIFF OMITTED] T4170.029
    
    [GRAPHIC] [TIFF OMITTED] T4170.030
    
    [GRAPHIC] [TIFF OMITTED] T4170.031
    
    [GRAPHIC] [TIFF OMITTED] T4170.032
    
    [GRAPHIC] [TIFF OMITTED] T4170.033
    
    [GRAPHIC] [TIFF OMITTED] T4170.034
    
    [GRAPHIC] [TIFF OMITTED] T4170.035
    
    [GRAPHIC] [TIFF OMITTED] T4170.036
    
    [GRAPHIC] [TIFF OMITTED] T4170.037
    
    [GRAPHIC] [TIFF OMITTED] T4170.038
    
    [GRAPHIC] [TIFF OMITTED] T4170.144
    
    Chairman Tom Davis. Thank you very much.
    Ms. Harty.
    Ms. Harty. Mr. Chairman and members of the committee, thank 
you very much for inviting me to testify before you today on 
the role of the Bureau of Consular Affairs in implementing 
biometric programs and U.S. visas and new passports. The 
inclusion of biometrics in international travel documents is an 
important step in enhancing the security of our Nation's 
borders.
    The Department of State's visa work abroad constitutes a 
vital element in providing for our national border security. 
The consular officers of the Foreign Service who adjudicate 
visas at our embassies and consulates abroad are truly our 
first line of defense. Through them, our goal is to push the 
very borders of the United States out as far from our shores as 
possible to stop a problematic or a questionable traveler well 
before they reach our country.
    The Border Security Act requires that no later than October 
26 of this year the Secretary of State issue to aliens only 
visas that use biometric identifiers. To comply with this 
requirement, the State Department began deployment of the 
Biometric Visa Program last September. I am pleased to report 
that more than 80 posts are currently enrolling fingerprints, 
and the program will be in effect at all 212 visa-adjudicating 
posts by the October 26 deadline.
    Under State's Biometric Visa Program, our consular officers 
by October 2004 will enroll applicants' fingerprints with 
electronic scanners as part of the visa application process. 
The scanner looks like this. I would like to call to your 
attention several slides that I have as well which demonstrate 
how we work in concert with our colleagues at DHS in seven 
pilot posts and how it will work in the future all around the 
world.
    As we see in slide 1, the officer reviews biographic, 
address, and contact information for the applicant along with 
other specific application data. I should note that this is 
only a small part of the information that is available to an 
officer during the process.
    The second slide demonstrates, and I realize it is much 
harder to see than the copy I have in front of me, but the 
second slide demonstrates how the officer marries up the 
applicant's photo with the finger biometric identifier he or 
she just in fact collected. I think we are a little bit out of 
order here. But the second slide in my presentation has both 
the photo and the fingerprints side-by-side so one is matched 
against the other. That is the second slide.
    In the third slide, which we just saw, the officer reviews 
the IDENT check conducted on the applicant. In the case of this 
applicant, at this time there is no response from the IDENT 
record. That means there is no print at all available through 
the IDENT data base.
    The fourth slide is what the consular officer sees upon 
receipt of the results of the class name check for the 
applicant. In this example, there is a previous refusal under 
the same name. The officer will now need to further examine 
this case to determine if the refusal actually pertains to the 
applicant in front of them or if it is in fact simply someone 
with a similar or the same name. At this point in the process 
there are naturally two ways to go. If the officer decides to 
issue a visa, our non-immigrant visa system sends the issued 
visa data including the applicant's photo to DHS.
    The fifth and final slide is the data at ports of entry, as 
currently seen. It looks quite a bit like the first slide that 
Under Secretary Hutchinson showed you. In the future, when a 
visa applicant arrives at a port of entry the US-VISIT system 
will use the fingerprint identification number to match the 
visa with the file in IDENT and compare the visa holder's 
fingerprints with those on file. This one-to-one photo and 
fingerprint comparison will ensure that the person presenting 
the visa at the port of entry is the same person to whom the 
visa was issued abroad. If the applicant's fingerprints do not 
match fingerprints provided by the FBI and the IDENT data base 
we will not issue a visa until a consular officer reviews the 
information regarding that individual. The point I would really 
like to underscore here is that an IDENT hit overseas will 
freeze the visa process until that hit is resolved. We are 
currently piloting the IDENT match program at seven overseas 
posts and we will continue to add new posts as quickly as 
possible to meet that October deadline.
    The Border Security Act also established October 26, 2004, 
as the date by which Visa Waiver Program countries must issue 
to their nationals only machine-readable passports 
incorporating biometric identifiers that comply with the 
standards established by ICAO. ICAO's decision to make facial 
recognition technology the standard passport biometric was made 
in May 2003, leaving VWP countries approximately 17 months to 
bring a biometric passport from design to production, a process 
that normally takes several years. Although VWP country 
governments share a commitment to making this change, and all 
are to varying degrees making progress toward complying with 
the requirement, virtually all visa waiver countries have 
indicated they will be unable to meet the deadline.
    The legislative requirements of the Border Security Act 
which I just described apply only to passports issued by Visa 
Waiver Program countries, not the U.S. passport, which I firmly 
believe is the most valuable travel document on the planet. 
Although our law does not require of us what it requires of the 
VWP, we nevertheless have a program that will produce the first 
biometric U.S. passports using the ICAO standard of facial 
recognition by October of this year. We hope to complete the 
transition to biometric passports by the end of 2005.
    The Department of State is working hand in hand with our 
colleagues and friends at the Department of Homeland Security 
to ensure that we together have a system that facilitates 
legitimate international travelers and properly identifies 
those who pose a threat to prevent them from entering the 
country. Our continued commitment to ensuring the sanctity and 
security of our borders and our Nation is our No. 1 priority. I 
would like to thank Under Secretary Hutchinson and his team for 
the very collaborative effort we have. And I am happy to answer 
any questions that you might have this afternoon.
    [The prepared statement of Ms. Harty follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.039
    
    [GRAPHIC] [TIFF OMITTED] T4170.040
    
    [GRAPHIC] [TIFF OMITTED] T4170.041
    
    [GRAPHIC] [TIFF OMITTED] T4170.042
    
    [GRAPHIC] [TIFF OMITTED] T4170.145
    
    [GRAPHIC] [TIFF OMITTED] T4170.146
    
    [GRAPHIC] [TIFF OMITTED] T4170.147
    
    [GRAPHIC] [TIFF OMITTED] T4170.148
    
    [GRAPHIC] [TIFF OMITTED] T4170.149
    
    Chairman Tom Davis. Thank you very much. Ms. Harty, let me 
start with you. Many delays in obtaining visas have a profound 
effect, obviously, on business and educational institutions 
here in the United States. Members of the committee staff 
recently visited China and learned about the Beijing embassy's 
proposal for a 1-year multi-entry visa for Chinese visitors. 
Can you tell me about the status of this proposal. Any estimate 
when the decision might be made?
    Ms. Harty. Sure. Absolutely. I thank you for the question, 
sir. I think it is a good suggestion. One of the many changes 
in the September 11th world is that we have a much more 
collaborative interagency process on just such decisions. We 
received a cable from the post spelling out what they would 
like to do. We applaud it, and we are running it through the 
interagency process right now and I think it is fair to say 
that we will have an answer fairly quickly. I agree with you 
completely that facilitating legitimate travel is important to 
all of us and we would like to see that done.
    Chairman Tom Davis. Also Ms. Harty, I understand October 
26, 2004, is the implementation date for biometric-enabled 
travel documents for Visa Waiver countries as well as a U.S. 
intelligent passport system. It is going to be difficult to 
meet it. Any idea at this point as to whether that deadline 
will need to be extended?
    Ms. Harty. Sir, what I can say about that is that it is a 
frightening prospect. If the visa waiver countries are held to 
the deadline as the law currently requires, several things will 
happen. My job is to implement the law, and so I will do that. 
However, one of the consequences of so doing is that we will 
have an awful lot more visa applicants to converse with than we 
have had in the recent past. We estimate that there may be 
upwards of 5\1/2\ to 8 million additional visa applications 
that we would have to handle. Of course, sir, it is a 
relatively short term problem as the visa waiver countries 
begin to come on board with their biometrically enabled 
passports. But in the short term, we would see a serious impact 
on business travel, on academic institutions, on travel and 
tourism to this country. We will do our very best to facilitate 
the travel of those who are in emergency situation, those who 
have time-sensitive travel. But there will be a serious impact 
on the visa waiver countries and on our abilities to provide 
services to them in the short term.
    Chairman Tom Davis. Thanks. Asa, last year GAO issued a 
report that characterized the US-VISIT program as a high risk 
endeavor. But the report was issued at a time when the US-VISIT 
office was still in the process of staffing and setting up the 
office. I know you are aware of the report. In the 5-months 
since that report was issued, can you give us an update on how 
the concerns that were laid out have been addressed.
    Mr. Hutchinson. Absolutely. And the GAO report was really 
understandable because it is a risky endeavor when you are 
talking about $330 million of the taxpayers' money and a 
complicated system. But a couple of specific issues that they 
raised. One was the very beginning stage of the program office 
that was not fully developed that would provide oversight. Jim 
Williams, who is with me, who is the director of the program 
office, brings an extraordinary amount of expertise. He has set 
up a team, established an office. They are very robust and are 
moving forward very aggressively. So I think that concern has 
been met.
    The second one was that there was not any broad-based 
oversight in terms of the different agencies that might be 
impacted. That has been addressed. I am chairman of an advisory 
board and we have met, and so that interagency oversight has 
been met as well.
    Chairman Tom Davis. Do you think the deadlines for US-VISIT 
allow for enough time for implementation, or do you think you 
will be asking for extensions, or is it just too early to say?
    Mr. Hutchinson. I believe that is something that we need to 
continue our discussions with Congress on. Some of it is how 
robust the interpretations of the requirements are and the 
expectations of Congress. The 2004 spend plan that we 
presented, we can meet the 2004 deadline of integrating the 
data bases at the 50 busiest ports. And then if you look at the 
2005 solutions, some of it will be the funding, how quickly we 
can move toward our solution. So I am optimistic that we can 
meet those deadlines that Congress has given to us. But we 
would certainly welcome a continued discussion with you and a 
partnership with you to make sure that we are going in the same 
direction.
    Chairman Tom Davis. Thank you. The gentleman from 
Massachusetts?
    Mr. Tierney. Thank you. Mr. Secretary, you made a passing 
comment about the Mexican border crossing card. So let me 
followup on that if I could. What was the original intention of 
the administration with respect to the Mexican border crossing 
card?
    Mr. Hutchinson. Well, our intent was to fully satisfy the 
requirements of the congressional mandate for an entry/exit 
system and to build a strong, robust system there. So it is a 
matter of designing it. There has not been any change in 
position, it is a matter of developing the right process to 
handle those border crossing cards.
    Mr. Tierney. Maybe I need to phrase it differently. What is 
it you expect the card to do, exactly?
    Mr. Hutchinson. Thank you. The card, of course, there are 
104 million of them already issued out there. They are used for 
frequent border crossers, they have fingerprints, they have a 
background check to a certain extent before those cards are 
issued. The question is whether we are going to take their 
biometrics when they come in. Obviously, that is difficult 
time-wise when you talk about 104 million of them. So we are 
looking at the right way to be able to track that, looking at 
radio frequency technology. One consideration is, but no 
decision has been made, but one consideration is that they 
should simply be processed through but not entered into US-
VISIT. Obviously, that is a logical thing to consider because 
of the volume and the time it would take and potential for 
clogging our borders if you did try to enroll biometrically all 
of the border crossing cards. So we are still looking at that, 
the possibility of exempting them from the US-VISIT enrollment 
requirement when it is used as a crossing card. Now if it is 
used as a regular long term visa, like a B-1 visa, then they 
would go into secondary inspection and they would be enrolled 
in US-VISIT. So that is what we are looking at. But, again, no 
final decision has been made.
    Mr. Tierney. And where are you in that? Are you slowing 
down your process on that or delaying it a little bit?
    Mr. Hutchinson. No, absolutely not. We are on schedule in 
this regard and we expect the final decision to be made very 
quickly because we know it is of great concern to the border 
communities, particularly. Looking at what is ahead, they need 
to know. So we anticipate a decision very shortly.
    Mr. Tierney. So you have no change in this process or no 
new news that you want to give us with respect to this border 
crossing card?
    Mr. Hutchinson. Not other than we are working very hard on 
that and hope to be able to make a final decision very soon.
    Mr. Tierney. So in a day or two we do not expect any news 
on that issue from the administration?
    Mr. Hutchinson. I would not necessarily count on that. 
Obviously, whenever you are making a very substantial policy 
change, not change necessarily, but determining the direction 
as to how to handle this that impacts so many communities, you 
have to check with a lot in the interagency community, work 
with Congress on that. And that is the process that we are 
going through right now.
    Mr. Tierney. And what is your current recommendation with 
regard to it?
    Mr. Hutchinson. My current recommendation? My 
recommendation would be that the border crossing cards when 
they are used as the 72-hour permit, then they should be exempt 
from the enrollment in US-VISIT. That would be my current 
opinion. And then whenever they are used as a regular visa, 
they should be referred to secondary inspection for enrollment 
in US-VISIT.
    Mr. Tierney. And what risks do we run in our security with 
respect to exempting on that short a period of time?
    Mr. Hutchinson. Well, if you continue to handle the border 
crossing cards as they do now, you are not running any 
additional risk, you are simply not adding the significant 
security capabilities by having a biometric confirmation. Now, 
as we proceed and develop the US-VISIT more broadly and 
comprehensively, we want to bring the border crossing cards 
completely into US-VISIT in the right way. But it might be, 
again, radio frequency technology where you would have an 
imbedded chip in the card that would be waived just like an 
EZPass to a reader and that would come up for the inspector and 
that way you could travel almost up to 40 miles per hour. I 
would not suggest that going through our ports of entry, but 
the technology is capable of reading those type of cards 
through radio frequency technology even at that speed.
    Mr. Tierney. So, if you are going to exempt a class of 
people there, you are going to exempt a good number of 
countries that are listed, everything from Angola to 
Switzerland. Is that to say there is no potential that anybody 
is going to have anybody from any one of those countries be 
involved with terrorism, they do not need to be checked, but 
every other country needs to be checked? I do not get how that 
enhances our security or how it does not leave gaping holes.
    Mr. Hutchinson. Well, first of all, this is a system that 
is not a perfect system on day 1; you have phase I, phase II, 
phase III. Those are the directions that Congress gave us. And 
so it is not going to be a perfect security on day 1; we build 
on it.
    Second, the border crossing cards, you already have their 
fingerprint, you already have their check. They are not issued 
that card unless we are satisfied they are not a terrorist. And 
so these frequent crossers are coming across for economic 
interests. So we are not creating any security vulnerability if 
we make the decision to exempt those.
    In reference to other countries such as visa waiver, that 
is obviously something, again, that we continue to look at. But 
on day 1 of our system we are adding 36 million travelers into 
our airports and seaports. That is a pretty big first mouthful. 
And then we see how this needs to be expanded to cover other 
security gaps.
    Mr. Tierney. I have more questions but I will wait, Mr. 
Chairman. Thank you.
    Chairman Tom Davis. The gentleman from Virginia is 
recognized for 5 minutes, Mr. Schrock.
    Mr. Schrock. Thank you very much, Mr. Chairman. Let me 
thank both of you for testifying. Let me make a brief statement 
and then I have a couple of questions. And I am sorry I was 
late.
    Clearly, today's testimony is going to be very beneficial 
to Congress and those of us charged with oversight of this 
incredibly important issue. The task set before all of us to 
protect our borders, a national interest, while preventing 
unnecessary delays to our flow of commence, trade, and tourism, 
is clearly a daunting task. The efforts to date by all of those 
involved in the guidance and direction of the DHS is clearly to 
be commended.
    I realize the US-VISIT program is in its infancy and expect 
we will see it change and perform in due time as we realize 
future benefits from the lessons we have learned through its 
implementation. I am convinced that the American people and the 
tourist population will remain security-minded and we will be 
tolerant and patient as we experience growing pains as long as 
we maintain a focus on efficiency and effectiveness and never 
become complacent with this program. I say tolerant because I 
have gone through several airports in the last week and I 
really was and I really surprised myself.
    I have a very deep concern and a personal stake in these 
efforts because the district I represent in Hampton Roads, 
Virginia Beach, and Norfolk has one of the largest commercial 
seaports, incredible military facilities, and major tourist 
attractions, and international airports. So I tell you, I 
pledge my support to whatever is necessary to provide maximum 
security for our ports and borders, ports being my No. 1 issue 
right now, while minimizing the obstacles to the reasonable 
flow of tourists and trade at our ports, and I thank you for 
what you are doing.
    We understand that the statutory requirements have placed 
DHS officers in Riyadh and Jeddah, where I have spent a lot of 
time, to review visa adjudications and that more officers are 
coming. What value are these officers going to have to the visa 
adjudication process?
    Mr. Hutchinson. Those visa security officers were deployed 
to Saudi Arabia in accordance with the mandate that Congress 
gave us in the Homeland Security Act. The value that they add, 
and Congressman, I was there as well to see the kind of work 
that they do, they review every visa application in Saudi 
Arabia. They check directly with the law enforcement data 
bases, add a security perspective. And I think that is the 
specific value that the Homeland Security visa security 
officers would add is a security perspective to that issuance 
process. They are also engaged in training, coordination there 
on the ground, making recommendations on any policy changes 
that need to be made.
    As time goes on I think their role will change somewhat. 
Maura and I have talked that eventually the consular offices 
should have access to all the data bases that we check so they 
can do all the checks there and then our visa security officers 
can look to having more liaison with the law enforcement 
community there, adding intelligence value on the ground.
    Mr. Schrock. Do you have enough of them there?
    Mr. Hutchinson. We have enough there at the present time. 
The problem is that a number of them are there TDY and we are 
going to have to get permanent deployment there. But we do have 
at the present time a sufficient number.
    Mr. Schrock. Secretary Harty.
    Ms. Harty. Thank you, sir. I agree with Under Secretary 
Hutchinson completely in what he just said. I would like to add 
that I also have been there and our colleagues at both State 
and DHS are working very well together. We do look forward to 
the time, and we are working very, very carefully and 
assiduously on data share issues so that we can free up people 
from doing repetitive tasks. If our systems talked to each 
other completely, they would be freed up on the homeland 
security side to do a little bit more liaison, a little bit 
more intelligence work, and that will greatly enhance the level 
of play for one team and for both sets of things that need to 
be done.
    Mr. Schrock. Great. I fear that we could be setting 
ourselves up for failure if the basics, such as the baseline 
data base, are not among our first priorities. I know the law 
enforcement information exchange program that is being piloted 
both in the district I represent and in the northwest is one 
such effort. Are we seeing some nationally implemented efforts 
like this to share criminal information and build greater data 
bases? The concern I had right after September 11 was that we 
had 47 Federal agencies doing intelligence and you would not 
talk to me, and you would not talk to him, and I would not talk 
to anybody because we were giving up power. I am just wondering 
if that is all coming together?
    Mr. Hutchinson. It is. That is probably as high a priority 
as we have in the department is just to address the problem 
that you outlined. Both US-VISIT and our visa security officers 
are I think emblematic of some success in this area, 
particularly US-VISIT where we have brought together the data 
bases so that our inspectors at the entry points will have the 
same information that our consular officers will have and that 
it will be almost instantaneous transfer. We continue to 
buildupon that.
    I will add that what we will bring in with the private 
sector contractor, the integrator of US-VISIT, what they will 
do is they will help us to modernize and to integrate all of 
the different data bases. That contract will go out this year. 
Last year the President asked for $400 million and our US-VISIT 
I think was funded at $330 million. That difference makes a 
substantial impact on what we can do in that area.
    Mr. Schrock. Secretary Harty?
    Ms. Harty. Sir, I agree completely again with Under 
Secretary Hutchinson. He mentioned Jim Williams' name already. 
We have a great partner and a great friend at State in Jim 
Williams. We have done a lot together already. Just a little 
bit earlier during my opening remarks I showed several slides 
that already show that when a consular officer issued a visa 
this morning in, say, Buenos Aires, within 5 minutes time the 
Consular Consolidated Data base refreshes itself and shares 
that information with inspectors at ports of entry. So that 
when that Argentine citizen travels to the United States even 
later the same day the inspector at the port of entry already 
has the photo and access to the same biographic information 
that we saw at the consular post overseas. That is a tremendous 
ability to spot and make sure that we do not see people engaged 
in photo substitution of passports. It is a tremendous ability 
for the inspector at a port of entry to know what we knew and 
to ask the appropriate questions to make sure there is not a 
gap there.
    Mr. Schrock. And that has happened since September 11, that 
ability?
    Ms. Harty. I am sorry, sir?
    Mr. Schrock. That ability to do that has happened since 
September 11?
    Ms. Harty. We introduced the data base ourselves in 1999 
and we began rolling it out very, very slowly, regrettably, to 
legacy INS. Post-September 11 that deployment speed increased 
very rapidly.
    Mr. Schrock. Great. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. The gentleman from 
Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
holding the hearing on this important issue.
    Secretary Harty, I had a couple of questions. As you stated 
in your testimony, I think our consulates are the front line in 
this effort of screening people for visa purposes. I think it 
is essential that we have the right technology and information 
systems in place so that we can compare visa applicants against 
data bases that we have to determine whether they have a 
criminal background record or any kind of profile that would 
lead us to be concerned of a potential terrorist activity. I 
think it is essential that the data bases be coordinated so 
that we have common information and the most comprehensive 
information.
    I represent an area right next to the Nation's Capital, a 
very diverse community. Once someone passes that test, in other 
words, they have passed the computer check at the consular 
office, all the information has gone through and they have 
confirmed that there is no match with the data base, then the 
consular officer still has to make a decision as to whether or 
not this person should be granted a nonimmigrant visa. My 
concern is that in many cases there are people who have 
legitimate reasons to come to the United States, whether it is 
for education purposes, whether it is to visit a sick family 
member, dying family members in many cases, who are being 
denied visas without being provided really any additional 
information as to why they do not meet the test.
    Right now, as I understand the test, the consular officer 
has to determine whether or not they have sufficient ties to 
their country that they live in, which is a very wide open 
test, and we want our consular officers to have discretion. On 
the other hand, it seems to me incumbent that we provide some 
of these people reasons that they are being denied. Again, 
these are people who have met the security check, OK, we have 
confirmed that there is no match. Because we have had literally 
hundreds of cases, in many cases people who want to visit dying 
relatives, who do have ties to their country of origin, have no 
reason to want to stay in this country, but they are being 
denied on a routine basis. And they have to pay $100 every 
time, at least, something thereabouts. And many times they pay 
$100 more than once and they are not really given in many cases 
reasons by the consular officer as to why they are being 
denied, so it makes it much more difficult for us to help them 
provide the information.
    My question is, how can we address that issue? I have lots 
of cases here which I think anybody who is looking at the facts 
would conclude that this person wanted to come to the United 
States for legitimate reasons and yet they were denied a visa. 
So that is one question. Then I have questions on the other 
end. It seems to me we need to do more for people who are 
actually overstaying their visas. But if you could address that 
one first.
    Ms. Harty. Sure. Thank you very much for the question. It 
goes to the very heart of what we do. I agree with you 
completely and with Secretary Powell who talks very regularly 
about the importance of balancing secure borders and open 
doors, and the importance on the open door side of that 
equation of recognizing that this country prospers in countless 
numbers of ways when we in fact allow legitimate travelers to 
come here, be they coming for tourism, business travel, 
academic pursuits, or any other personal reason. We need to 
bear in mind the travel and tourism industry, an $88 billion 
industry. One out of every seven civilian adults employed in 
this country is employed by some facet of the travel and 
tourism industry. We are not unaware of those things.
    What we are aware of as we do our jobs as consular officers 
overseas, as I have done for many years myself, is the great 
privilege of representing our country overseas and of being 
able to delve into the society to which we have been assigned, 
so that we speak the language, we read the newspapers, we 
understand the economics, we understand very well from our 
friends in the Department of Homeland Security the overstay 
rate of people from the country that we are assigned to. We do 
a balance that allows us to take into account everything we 
know about that country and then ask very specific individual 
questions to the person in front of us.
    It is awfully sad sometimes, sir, you are absolutely right, 
if someone comes up and says that they have a dying relative. 
The last thing in the world we want to do is impose an 
additional hardship on them. Having said that, though, 
sometimes it is not always exactly what it seems to be, both on 
the side of what the applicant might tell us about why they are 
coming as well as when the applicant says they were not 
necessarily told what the reason for their denial was. In a 
country, say, with a 47 percent unemployment rate, a young 
applicant who wants to go to the United States who does not 
have a job in his own country does not necessarily look to us 
like somebody who would come home again when they might in fact 
seek employment in the United States.
    Mr. Van Hollen. I do not mean to interrupt you but my time 
will expire soon. Clearly, the individual that you were just 
describing is somebody who you can understand why someone would 
make a judgment that maybe they would be a risk to stay in the 
United States. I am not going to go over all the cases, maybe 
we can go over them some individually.
    Ms. Harty. Sure.
    Mr. Van Hollen. But we are talking about someone from 
India, a woman who is a member of all Indian University 
badminton champion, in 1991 she was admitted to George 
Washington University School of Business and Public Management, 
she was admitted to the special program, her father has agreed 
to pay for her entire stay in the United States, the family has 
lots of assets in India, and there is no clear reason why this 
woman was denied. Maybe in some cases you are saying they do 
not provide the individual with the reason. But sometimes our 
office asks for a reason and we do not get an explanation.
    So, clearly, there are many cases where their judgment is 
absolutely right. But it seems to me there has to be a process 
where in those cases where the facts suggests there are good 
reasons to come here, a dying family member or something--when 
I talk to somebody who works at NIH who has a family member who 
is dying and lives in the neighborhood and I know and they just 
want their brother who is 75 years old to come visit them 
before they die and they are denied a visa, it seems to me 
there has to be a mechanism for dealing with this at the staff-
to-staff level rather than it having to get elevated up to a 
Member of Congress intervening.
    My concern is we are not focusing enough of our efforts on 
people who are overstaying their visas. Part of this VISIT 
program has this exit provision, which right now is a voluntary 
program I believe at two airports, including BWI. Really, we 
should be going after those people who are abusing the visas by 
overstaying. We are giving a lot less attention to that while 
at the same time it seems to me a lot of people who want to 
come here legitimately are being left out.
    I guess my time has expired; maybe there will be another 
round. But I really would like to pursue this because we really 
get lots of cases, Mr. Chairman. We do not pursue every one but 
we want to pursue those that the facts suggest that the 
individual has not really been given full information as to why 
they have been denied entry.
    Chairman Tom Davis. We get a lot of the same.
    Mr. Van Hollen. I know you do.
    Chairman Tom Davis. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you. First, Under Secretary 
Hutchinson, former Congressmember, I have heard nothing but 
complimentary feedback from Baltimore-Washington International 
Airport. I represent Maryland's Second Congressional District 
and BWI is in that district. In the beginning with the TSA we 
had complaints that our office had to deal with involving long 
lines. I think one of the reasons for that is that TSA had a 
good program, they cut the personnel and then all of a sudden 
the lines increased. But we changed that.
    As it relates to the US-VISIT program, I am going to ask 
you some questions because you will probably be gone but the 
next panel has a member of the U.S. Chamber of Commerce on it, 
so I want to give you the opportunity to respond to what your 
experiences are at least at BWI, which is what I know about. 
But I think the Department of Homeland Security and the BWI 
have been working very, very closely on the exit program and it 
has worked very well. It is a pilot program and I think BWI is 
the only airport right now that has the exit procedures and 
kiosks. Our office nor BWI have received any complaints at all 
about the program. That is incredible because you usually hear 
complaints about something somewhere. I think one of the main 
reasons for this is that there is a program developed called 
U.S. Helpers and these are individuals who are working in the 
international terminals to work with these individuals. Because 
what they are really saying to the people when they are exiting 
is if you do not give us the information when you are leaving 
you will not be able to come back again or whatever, and that 
is working.
    I have heard complaints, though, about long lines 
interfering with business. International business is extremely 
important to us. However, I would think that after September 11 
and based on what occurred, and our threat against terrorism, 
our national security, that anyone coming into this country, as 
long as there are not an inordinate amount of delays, would not 
have a problem of giving a fingerprint and information off of 
their passport. It is so important for national security. I 
mean, we have Social Security Numbers and we have to have 
pictures on our drivers licenses. And there are also a lot of 
waiver countries that are not affected. And you are saying, was 
that fair? Well, bottom line, we have to rely on our 
intelligence and our intelligence shows that we cannot take 
care of everybody, everything, that we have to take care of our 
priorities.
    So I am asking you to answer the question, which I 
anticipate that the Chamber might be concerned about, of 
interfering with business. That has not been the case at BWI 
airport, for whatever reason. So if it works, I think do it 
someplace else or use that as a model when we implement this 
program on a national basis.
    Mr. Hutchinson. Thank you, Congressman. I want to 
compliment BWI, they have been a tremendous partner in 
assisting us in testing the exit solution. We are very 
grateful. And you are right, we made sure that we had personnel 
that was present to help the foreign visitor to make sure they 
knew how to do it, to assist them in that exit solution. We 
will be piloting that in other places.
    I know that the Chamber and others have expressed some 
concern about whether we are moving too quickly, how this is 
going to impact business, particularly the land borders. I 
appreciate and understand their concerns. In fact, we look 
forward to meeting with them regularly on this. But, first of 
all, the history should help a little bit. Those fears were 
there in reference to the airport solution and they did not 
materialize because we were committed to make sure we did not 
clog business and we added that security value. We have that 
same commitment for the land borders. We are going to work with 
those communities and continue to work with the Chamber, who 
have been a very, very good partner.
    What is very, very important is that, whether it is BWI 
airport, that we have a communication with them, all the 
airports and the airlines that are impacted, and now it is the 
communities and our land borders that we need to listen to. Jim 
Williams will be going down there next week and listening to 
them. We are going to have that same kind of dialog and 
partnership as we go to phase II of US-VISIT as we did at the 
airports.
    Mr. Ruppersberger. Are we going to use helpers at other 
airports, the same system?
    Mr. Hutchinson. Whenever there is a similar solution we 
will. And we hope it will be a temporary thing until all of our 
travelers get used to the requirements. But initially, yes.
    Mr. Ruppersberger. My time is getting close and we have a 
strict chairman here today, so I want to ask one question 
because this is where I have received a lot of complaints and I 
am asking your opinion on this.
    I know that with respect to terrorists and Al-Qaeda that we 
have to always give different looks as far as security and 
because Al-Qaeda is very patient and they do do surveillance. 
No question, we know that and we have established that. At BWI 
Airport there was a program, at least when we went to Code 
Orange, to 1 day just stop all cars that are coming to the 
airport. Now I guarantee you that many people will miss their 
flights because of that issue.
    I am wondering whether, in your opinion, that type of 
tactic is worth the result to really delay and to stop 
everybody coming into BWI Airport without notice. I know we 
need to give different looks. But that seems to be rather 
drastic from a commerce and a business point of view to just do 
that without warning and when there is no intelligence 
information that there could be a problem there. What is your 
opinion with respect to that?
    Mr. Hutchinson. Whenever we go to Orange, it is not 
designed to stop business traffic and traffic at the airport, 
it is just designed to add a security measure. So we want to 
have----
    Mr. Ruppersberger. But I am asking you specifically with 
regard to that tactic, do you feel that is justified?
    Mr. Hutchinson. It is justified with local airport 
influence on it. I do not believe it is designed to be 
comprehensive where everybody is stopped, but it is a rotating 
check, different checkpoints as they go in. Some airports have 
it more comprehensive than others. So there is a specific 
mandate that we give, but there is some local flexibility on it 
based upon their own security and the makeup of their airport. 
I would be happy to look at that and get you a more specific 
response.
    Mr. Ruppersberger. Yes. I would like you to look at that 
and get back, because we do get a lot of complaints about that 
procedure when it occurred on those occasions. Could you get 
back to me on that?
    Mr. Hutchinson. I will be happy to.
    Chairman Tom Davis. Thank you. Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. Welcome, Secretary 
Hutchinson. I for many years represented LAX and I understand 
on September 11 LAX was a designation as a target, too. So we 
have been very concerned about security. As I was reading 
through the tons of information that has been prepared for us, 
do I understand that the US-VISIT program exempts the Canadian 
border?
    Mr. Hutchinson. Anybody who comes across the Canadian 
border with a visa will be treated the same as if they come 
across the Mexican border with a visa or into our airports. But 
the fact is that Canadian citizens do not require a visa to 
come into the United States, so they will not be impacted the 
same way because they are not visa travelers.
    Ms. Watson. What concerns me as you follow the dots, it 
appears that there has been a lot of activity and a lot of 
crossing coming from the Northwestern part of the United 
States. And if somebody were a part of a conspiracy to do us 
harm, that would be the route they would want to come. I just 
want to mention that.
    Historically, our country's information system for tracking 
visitors has really I would say been quite a failure. We have 
heard again and again in hearings in this committee and in GAO 
reports how our data bases for tracking visitors are full of 
data that is either outdated or just wrong. You are planning to 
add a lot of new information into the existing data base. So 
how, I might have missed it because I did come in late, how are 
we correcting and how are we gathering data that is more 
updated, more accurate, and, considering the requirements of 
the Privacy Act, what are we doing differently so we will do a 
more effective job of tracing people who come across our 
borders and who live among us and who also could do us harm?
    Mr. Hutchinson. First of all, of course, we are 
consolidating data bases, making sure that we share 
information. But in reference to people who come across on a 
visa and overstay their visa, we are doing a great deal to 
handle that information and not just let it sit there. For 
example, in US-VISIT there is an exit capability now that gives 
us information on people who do not abide by their visas and 
leave on time. That information is referred over from US-VISIT 
to our ICE Office of Compliance that will followup on those 
leads. We are beefing up the staffing of that to handle that 
information. That is a voluminous task.
    When you are looking at foreign students under the SEVIS 
program, there are thousands of referrals that come from the 
universities of students who are not showing up for class, who 
dropped out, or some other anomaly, so we have to followup on 
that. US-VISIT, if someone does not leave within the 30 days 
through the airport, we can check that and that information is 
referred to us. But we have had an average of 2,500 potential 
overstays each week since US-VISIT has been implemented. Now, 
of those, it might have been someone who left a week later. So 
it is not a viable lead, they just left maybe 4 or 5 days after 
their 30 days expired. But that is a referral we have to sort 
through. And so of the 2,500 per week, only about 20 percent of 
those might actually be actionable for leads that would be sent 
to the field. But an enormous amount of work is involved in 
handling the information that is created. It is a challenge to 
us, but thank you for raising it because we are working hard on 
it.
    Ms. Watson. Let me just comment by saying that when the 
original bill came through the committee establishing this 
program, I argued to leave the visas and the requests for 
passports and so on to the State Department because the 
consulars are well trained, I mean, they are tough. Out at my 
embassy, my consular, I mean, even people that I thought would 
be safe bets, said no, because of the training they receive. We 
do not necessarily have that training and discernment. And I 
was concerned about where we placed these particular 
procedures. And so I was not clear in listening, is there a 
two-step process? When we start looking at the data, does it go 
through the US-VISIT program and then to the State Department, 
the consular section in the State Department, or does it go to 
the consular section and then back to US-VISIT? Can you explain 
that process to me.
    Mr. Hutchinson. I think there are two possibilities here. 
One, of course, if a consular office issues a visa, then that 
happens first and that information is transferred to Homeland 
Security so that when they come in through the checkpoint we 
will have that same information to confirm their identity. So 
is that an answer to your question?
    Ms. Watson. And then it goes back to the consular section 
of State?
    Ms. Harty. Well, the second half of that, of course, is if 
the Department of Homeland Security learns that somebody has 
overstayed a visa, that information is available to the State 
Department. So should the person apply for another visa later 
on, we would be aware of that information, and that would have 
taken place here. It is really mutual; whoever sees them first 
puts it in the system, and this is a system that everyday is 
sharing more and more information to the other. The most 
important thing we think is that both consular officers 
overseas and Homeland Security officers at ports of entry have 
as much information as is available by either of our agencies 
to make the best decisions possible.
    Ms. Watson. If someone answers my question, I am still a 
little confused. I think the culprit in all of this is that we 
just did not have adequate personnel, enough personnel to stay 
on these cases. All of us are so reminded of the aftermath of 
September 11 and those hijackers who received their clearance 
months and months after September 11 occurred. So somebody 
dropped the ball.
    Mr. Hutchinson. I am sorry to interrupt you.
    Ms. Watson. Go ahead.
    Mr. Hutchinson. But I thought your first question, and 
maybe you were going at that, is that in the State Department 
consular offices when the visa is issued, do our visa security 
officers duplicate that work? We are trying to avoid that, 
obviously, and to compliment and give a security perspective. 
But that might have been the direction of your question. But in 
every area the information needs to be interchangeable in real 
time, and that is our objective.
    Ms. Watson. Yes. That is what I understood. But I think the 
consular function should stay with State because they do have 
experienced workers. And if I could end by saying I know 
175,000 persons would be involved would be created when we 
created the Department of Homeland Security. I hope that we 
have designated enough people to track this information and 
keep it updated. That is my concern. Thank you very much. Thank 
you, Mr. Chairman.
    Chairman Tom Davis. Thank you. And I want to thank this 
panel. We may have some additional questions in writing to 
followup on, if that would be OK with you. But I will dismiss 
this panel.
    We will take a 2-minute recess as we set up the next panel. 
Let me just note for the record that Representative Burton 
wanted to be here today. He could not make it but I just want 
to note that he has testimony for the record.
    We will take about a 2-minute recess.
    [Recess.]
    Chairman Tom Davis. We are now ready for our second panel. 
I want to thank you all for staying with us and for taking the 
time from your busy schedules to appear. Our panel consists of 
Dr. David Plavin, who is the president of Airports Council 
International-North America, who is here on behalf of the 
Airports Council-North America and the American Association of 
Airport Executives; Randel Johnson, vice president for Labor, 
Immigration and Employee Benefits, U.S. Chamber of Commerce; 
and Jessica Vaughan, senior policy analyst for the Center for 
Immigration Studies. It is our policy that we swear in our 
witnesses.
    [Witnesses sworn.]
    Chairman Tom Davis. We have some lights in front of you, 
when it turns orange that means 4 minutes are up and you have 1 
minute remaining. Your entire testimony is in the record, so it 
is already part of the record. We have some questions we have 
already gleaned off that. But if you can try to keep it to 5 
minutes, the committee would appreciate that and then we can 
move on to questions. Thank you again for being with us and for 
staying with us.
    Mr. Plavin, we will start with you and move right on down.

  STATEMENTS OF DAVID Z. PLAVIN, PRESIDENT, AIRPORTS COUNCIL 
  INTERNATIONAL-NORTH AMERICA, REPRESENTING AIRPORTS COUNCIL 
INTERNATIONAL-NORTH AMERICA AND AMERICAN ASSOCIATION OF AIRPORT 
   EXECUTIVES; RANDEL K. JOHNSON, VICE PRESIDENT FOR LABOR, 
 IMMIGRATION AND EMPLOYEE BENEFITS, U.S. CHAMBER OF COMMERCE; 
JESSICA VAUGHAN, SENIOR POLICY ANALYST, CENTER FOR IMMIGRATION 
                            STUDIES

    Mr. Plavin. Thank you, Mr. Chairman, and members of the 
committee. Thank you for holding this hearing. Today I am 
testifying on behalf of ACI-North America, ACI-Worldwide, and 
the American Association of Airport Executives.
    We want to start by saying we fully support the goals of 
the program. We think it is long overdue. Airports have been 
arguing for a long time that this is a program that clearly 
needs to be implemented. Second, I want to say that we really 
thank the Department of Homeland Security, Under Secretary 
Hutchinson, the US-VISIT program, Jim Williams and his folks. 
The individual program has been implemented smoothly and 
without a lot of disruption.
    Now having said all of that, I think the other part of the 
issue is that we need to take great care with the way in which 
we implement the program, expand the program, and look at it on 
an ongoing basis because its potential for damage to the 
economy is very serious.
    Let me start with the entry part of the program. Underlying 
patterns historically have had the immigration function 
inadequately staffed at airports. Most airports report that, 
especially during the peak seasons, lines are very long and 
people are waiting a long time and sometimes still waiting on 
planes in order to get into the arrivals hall. We think US-
VISIT made the right decision in implementing their program in 
what is traditionally the very slowest part of the travel 
season. We think that was a great, intelligent decision.
    But if you put the two together, you can see why we have a 
concern about the problems that the existing clearance 
procedures will exacerbate. New York, for example, reports that 
there are fully a third more travelers during the summer season 
than during the current season. Dulles Airport notes that today 
they might process 800 to 1,000 US-VISIT passengers per day but 
that during the summer months that probably will exceed 2,000 
people per day. If we in fact extend this program to people who 
are now covered by the Visa Waiver Program, we are talking 
about a multiplication of that number that is very, very 
serious and we think will overwhelm the CBP and the airport 
resources.
    In that context, I think it is very important that we have 
published standards as to how long we think it ought to take to 
process people. We do not have that now. In fact, we have moved 
away from that over the years. And it is not possible for the 
Department to fulfill the cost effectiveness requirement that 
you have included in the authorization without having some form 
of performance standard. There is no acceptance of the fact 
that there is a reasonable amount of time within which people 
ought to be cleared coming into the country.
    There are a series of financial issues. We think that 
Congress and DHS need to fully fund the US-VISIT program before 
the exit portion of that is implemented. Our experience with 
TSA, for example, demonstrates the peril of forging ahead with 
inadequately conceived and funded solutions. The US-VISIT 
funding should cover space and services used by the program at 
the airport.
    Let me turn then to the exit elements of the VISIT program, 
especially the biometric dimension of it. It is a much more 
complicated program to implement than the entry program. Most 
important, the success of the exit process, that is to say, to 
do what Congress intended it to do, will depend on the proper 
placement of each process. Especially, the needs need to be 
based on the unique physical and traffic characteristics at 
each airport, and they are very different. That ought to 
require real and regular consultation with each airport and its 
airline community. That is crucial to a successful rollout. 
That was excellent at the beginning of the rollout process. We 
think it needs to be resumed. Test pilot programs would make it 
even more effective. It would be critical to test a variety of 
technologies--kiosks, hand-held devices, and placements at 
airports with different physical and traffic characteristics.
    The US-VISIT exit phase, unlike the entry phase, will 
insert an entirely new process, equipment, and staff into 
airports where previously none existed. Unlike airports in the 
rest of the world, U.S. airports have not been designed or 
built to accommodate passenger controls on departures. 
Passenger flows and passenger mixes are different at each 
airport. Space is already at a premium at these airports.
    Having said all of this, we think it is really important in 
almost every case that US-VISIT focus on implementing their 
program at the departure gates, not in the middle of the 
concourses where the current experiments have them. We think 
that is the only way to really be sure that passengers actually 
go through the process and depart on the flight. It will also 
reduce the congestion. And because of the confusion about exit 
procedures which will probably continue for a period of time, 
the conversation we already heard today about the border 
crossings, we would really hope that as we look at penalties 
for failure to comply we take into account the fact that there 
are lots of holes in this system that are going to remain that 
way for a while.
    Finally, there have been a series of cumulative changes, 
all of which I think individually have been for the better. But 
currently what we have is a hodgepodge layering of security and 
clearance procedures at airports that undermine efficiency, 
economic viability, customer service, and security itself in 
some cases. We hope that we can develop a comprehensive 
approach to all of the DHS programs, including some new 
facility guidelines on how to put together an airport and how 
to flow people through it.
    Again, Mr. Chairman, thank you for holding this hearing. 
ACI and AAAE and our member airports look forward to working 
closely with you and with DHS to enhance security and travel 
for the public. Thank you.
    [The prepared statement of Mr. Plavin follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.047
    
    [GRAPHIC] [TIFF OMITTED] T4170.048
    
    [GRAPHIC] [TIFF OMITTED] T4170.049
    
    [GRAPHIC] [TIFF OMITTED] T4170.050
    
    [GRAPHIC] [TIFF OMITTED] T4170.051
    
    [GRAPHIC] [TIFF OMITTED] T4170.052
    
    [GRAPHIC] [TIFF OMITTED] T4170.053
    
    [GRAPHIC] [TIFF OMITTED] T4170.054
    
    [GRAPHIC] [TIFF OMITTED] T4170.055
    
    [GRAPHIC] [TIFF OMITTED] T4170.056
    
    [GRAPHIC] [TIFF OMITTED] T4170.057
    
    Chairman Tom Davis. Thank you very much.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. I think my primary 
role here today is, frankly, to see that the interests of the 
border communities in this country are represented as the big 
decisions get made here in Washington. In this regard, let me 
just mention, and in response to some of the questioning 
earlier, the lessons we have at airports are interesting and 
they are important, and we certainly share many of the concerns 
of the prior speaker, but the land ports are an entirely 
different kettle of fish. It is like comparing a cruise liner 
on top of the ocean to the difficulties of exploring the depths 
of the ocean.
    I was on the Data Management Information Task Force. I was 
privileged to visit many border communities and airports. You 
saw those from Asa Hutchinson where 80 percent of crossings 
occur, almost 400 million a year, at the land borders. It is 
not just a question of statistics and numbers, however, it is a 
question of environment. The land borders are entirely 
different than airports. It is an antiseptic environment versus 
one where it is dusty, harsh, a lot of stress on border guards. 
We cannot extrapolate the lessons from one and say that because 
it is working well at airports that we can take those lessons 
and apply them to the land ports.
    Mr. Chairman, my testimony is quite lengthy. I would just 
like to ask that the members of the committee spend some time 
if they have not already going through the input from all the 
various local Chambers we have had. I can say that in my 
experience I have never had such an overwhelming response for 
information when we did a survey of the Chamber so quickly, 
ranging from Laredo to Nogales, to Ote Mesa, to San Diego. I 
think just that response shows the depth of the concern with 
US-VISIT and what may happen come December out there in the 
real world.
    I want to emphasize, Mr. Chairman, that while, yes, the 
U.S. Chamber of Commerce is concerned about profits and cents, 
but when one visits these border communities it is not just a 
question of keeping businesses alive, it is a question of 
keeping a way of life alive, it is a question of keeping 
Americans employed. Because when you have slowdowns at the 
borders and they last more than a few days, Americans lose 
their jobs, and when Americans lose their jobs, the economy 
goes downhill. I remember one occasion up in Buffalo where 
people were close to having tears in their eyes when they were 
talking about concerns about delays at the borders and the fact 
that their children would have to move, schools would close 
down because there would be no jobs. So it is not just dollars 
and cents here, it is environment, it is the social weaving of 
a community.
    Let me also mention that there is a natural skepticism 
among Chambers at the borders. These people have dealt with the 
government for a long time. There is a sense that while we are 
hearing some of these great things and, yes, it is working well 
at the airports so let's roughly apply that to the land ports 
and see what happens, we do not think there will be much of a 
slowdown, maybe 10 seconds here or there, people just do not 
believe that is the way it is going to work out. They do not 
believe Washington is listening to their concerns, and that is 
one reason that I am here. But they are asking that Congress 
closely follow this process, that DHS, before they implement 
anything in a massive way, do a series of pilot projects to 
test these concepts so in fact there are not any delays at the 
borders.
    Now, we are going to be criticized I know for not being 
sensitive to national security. But do not use that argument. I 
can say that people who live at the borders, who consider 
themselves U.S. patriots as strong as anybody, just want to 
have a feeling that the government is listening to them, that 
there is a conscious sense of what is at stake here, and that 
what the government is implementing will in fact promote 
national security. If they have that, I think everyone is 
willing to pull the wagon. But they have to have a sense of 
what is the purpose, what is the cost, and is it worthwhile. 
And DHS needs to do a better job of selling the program.
    Last, just as a technical matter, I should note that the 
statute that created the Department of Homeland Security 
recognizes that economic security--in fact, it is in the 
mission of the Secretary--economic security is also important 
to this country and that we have to keep speedy, efficient 
commerce moving at our borders. That is also part of the 
Department's mandate as decided by Congress.
    Let me just close by saying I think we all know that in a 
political year there are going to be attacks on this 
administration based on it is too weak on security, perhaps too 
strong on security, I do not know, it depends on what is the 
flavor of the day. But there is a concern I think at the border 
communities and generally that the Department will move too 
quickly because it will be afraid of these kinds of attacks. We 
would just ask and hope that this debate, because the stakes 
are so high, can be accomplished in a nonpartisan way.
    Just in closing, we would just hope that the Congress 
carefully follow what the Department does, and if in fact 
deadlines need to be extended, that Congress will seriously 
consider doing so. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.058
    
    [GRAPHIC] [TIFF OMITTED] T4170.167
    
    [GRAPHIC] [TIFF OMITTED] T4170.059
    
    [GRAPHIC] [TIFF OMITTED] T4170.060
    
    [GRAPHIC] [TIFF OMITTED] T4170.061
    
    [GRAPHIC] [TIFF OMITTED] T4170.062
    
    [GRAPHIC] [TIFF OMITTED] T4170.063
    
    [GRAPHIC] [TIFF OMITTED] T4170.064
    
    [GRAPHIC] [TIFF OMITTED] T4170.065
    
    [GRAPHIC] [TIFF OMITTED] T4170.066
    
    [GRAPHIC] [TIFF OMITTED] T4170.067
    
    [GRAPHIC] [TIFF OMITTED] T4170.068
    
    [GRAPHIC] [TIFF OMITTED] T4170.069
    
    [GRAPHIC] [TIFF OMITTED] T4170.070
    
    [GRAPHIC] [TIFF OMITTED] T4170.071
    
    [GRAPHIC] [TIFF OMITTED] T4170.072
    
    [GRAPHIC] [TIFF OMITTED] T4170.073
    
    [GRAPHIC] [TIFF OMITTED] T4170.074
    
    [GRAPHIC] [TIFF OMITTED] T4170.075
    
    [GRAPHIC] [TIFF OMITTED] T4170.076
    
    [GRAPHIC] [TIFF OMITTED] T4170.077
    
    [GRAPHIC] [TIFF OMITTED] T4170.078
    
    [GRAPHIC] [TIFF OMITTED] T4170.079
    
    [GRAPHIC] [TIFF OMITTED] T4170.080
    
    [GRAPHIC] [TIFF OMITTED] T4170.081
    
    [GRAPHIC] [TIFF OMITTED] T4170.082
    
    [GRAPHIC] [TIFF OMITTED] T4170.083
    
    [GRAPHIC] [TIFF OMITTED] T4170.084
    
    [GRAPHIC] [TIFF OMITTED] T4170.085
    
    [GRAPHIC] [TIFF OMITTED] T4170.086
    
    [GRAPHIC] [TIFF OMITTED] T4170.087
    
    [GRAPHIC] [TIFF OMITTED] T4170.088
    
    [GRAPHIC] [TIFF OMITTED] T4170.089
    
    [GRAPHIC] [TIFF OMITTED] T4170.090
    
    [GRAPHIC] [TIFF OMITTED] T4170.091
    
    [GRAPHIC] [TIFF OMITTED] T4170.092
    
    [GRAPHIC] [TIFF OMITTED] T4170.093
    
    [GRAPHIC] [TIFF OMITTED] T4170.094
    
    [GRAPHIC] [TIFF OMITTED] T4170.095
    
    [GRAPHIC] [TIFF OMITTED] T4170.096
    
    [GRAPHIC] [TIFF OMITTED] T4170.097
    
    [GRAPHIC] [TIFF OMITTED] T4170.098
    
    [GRAPHIC] [TIFF OMITTED] T4170.099
    
    [GRAPHIC] [TIFF OMITTED] T4170.100
    
    Chairman Tom Davis. Thank you very much.
    Ms. Vaughan, thanks for being here.
    Ms. Vaughan. Thank you for the opportunity to testify and 
for holding this hearing.
    The US-VISIT program is one of the most important and 
ambitious immigration program enhancements ever undertaken. The 
attacks of September 11 were made possible in part due to 
failures in our immigration system, specifically our temporary 
visitor program. Those terrorists, like others before them, 
obtained visas they were not entitled to, successfully used 
altered documents, and they overstayed their visas. The fact 
that US-VISIT will help prevent the entry of terrorists is not 
the only reason it is worth doing. When it is fully 
implemented, US-VISIT will also help ensure the integrity of 
the nonimmigrant visa system as a whole by helping us know that 
travelers are who we think they are and help ensure that they 
leave when they are supposed to. It is also important to 
remember that it can provide a service to legitimate travelers 
by helping to ensure the safety of international travel and 
help us understand which visitors pose little risk so that 
their travel can be facilitated.
    At the moment we are operating a massive temporary entry 
system, admitting more than 190 million temporary visitors a 
year with almost no information on the accuracy of our visa 
issuance and admissions decisions--virtually no quality 
control. We do know that today there are at least 10 million 
illegal immigrants living in the United States, of whom DHS 
estimates that at least 30 percent of them, probably more, are 
visa overstayers. So, we have already made 3 to 4 million visa 
mistakes.
    Not only do we not know exactly how many overstayers there 
are, we have little idea where they came from, how long they 
have been here, or what kind of visa they entered on. This 
dearth of information significantly handicaps our visa 
processing and inspections system. By collecting and analyzing 
information on departures under US-VISIT, immigration and 
consular officers will have a much better sense of what kinds 
of applicants are more likely to overstay and which kinds of 
applicants will be more likely to abide by the terms of their 
visa. Then we can focus our resources on screening the kinds of 
applicants who present the most risk and facilitate the 
processing for the others.
    In addition to improving our screening of these applicants, 
the US-VISIT program will also enhance enforcement efforts 
beyond the port of entry. Interior enforcement is currently the 
weakest link in our immigration system. A recent GAO report 
noted that the current risk of an overstayer being identified 
and removed is less than 2 percent. The data presented by US-
VISIT will provide information on both the problem groups and 
categories and also generate leads on specific individuals. For 
the program to have a meaningful impact on enforcement, 
however, it is necessary that it generate real enforcement 
activity; in other words, some people need to actually be sent 
home so that word gets around that overstayers will no longer 
escape the attention of authorities.
    As we proceed with implementation of the program, it is 
important that decisions on the order in which different groups 
are to be phased into enrollment reflect both feasibility and 
potential benefits to be gained from including them. US-VISIT 
will turn out to be a huge waste of time and resources if we 
keep it limited in scope. Right now, by enrolling only regular 
nonimmigrant visa holders, the program covers only a small 
fraction of the number of admissions, less than half the number 
who were covered under the I-94 system which also included 
certain visitors from Mexico and Canada. Unless US-VISIT begins 
enrolling more visitors, we actually will be worse off in terms 
of tracking than we were before. The three main groups missing 
are Visa Waiver Program visitors, Mexican laser visa holders or 
the border crossing card people, and Canadians. All of these 
categories present their own risks for security and compliance 
and therefore all must be included in US-VISIT eventually.
    I believe the strongest case can be made for enrolling 
Mexican laser visa holders next. The southern land ports of 
entry system is a notoriously loose sieve that is exploited by 
all kinds of illegal aliens, including terrorists and 
criminals. Mexicans represent the largest number of illegal 
aliens in the country, about 70 percent, and probably about 
one-third of all of the overstays. Today the border crossing 
cards are being abused with near impunity. They are one of the 
most frequently counterfeited U.S. documents and even the 
genuine documents are used fraudulently. In fact, they are 
openly available for rent in the street markets of Juarez and 
other cities. We cannot expect this laxity toward fraud and 
deceit will be overlooked by terrorists any more than it is 
overlooked by other prospective illegal immigrants.
    At somewhere between 5 and 8 million people, the population 
of laser visa holders is more manageable than either the 
regular NIV or visa waiver cohorts. And the documents are 
already biometric and machine-readable. This is something that 
we initiated years ago at considerable effort and expense but 
have yet to begin to utilize. Currently, the cards are being 
swiped very inconsistently, perhaps only half of the time. A 
large share of pedestrians are checked, but hardly any 
traveling by car are asked to even show their cards.
    Of course, we need to implement an exit system as well. But 
in relation to other programs of this kind, again, the scale of 
the task is manageable. If the State of New Jersey can figure 
out how to collect money from 30 million people a month without 
them having to get out of their car, we should be able to 
figure out how to swipe out 5 to 8 million people a year 
without too much imposition. Thank you.
    [The prepared statement of Ms. Vaughan follows:]

    [GRAPHIC] [TIFF OMITTED] T4170.101
    
    [GRAPHIC] [TIFF OMITTED] T4170.102
    
    [GRAPHIC] [TIFF OMITTED] T4170.103
    
    [GRAPHIC] [TIFF OMITTED] T4170.104
    
    [GRAPHIC] [TIFF OMITTED] T4170.105
    
    [GRAPHIC] [TIFF OMITTED] T4170.106
    
    Chairman Tom Davis. Thank you very much. Mr. Schrock, do 
you want to start the questioning.
    Mr. Schrock. Thank you, Mr. Chairman. Thank you all for 
being here today. It is a fascinating subject, and as you may 
have heard me say earlier, port security is a huge issue with 
me with the port of Hampton Roads, a major commercial port, and 
the largest naval facilities in the world. I go across that 
Hampton Roads bridge tunnel every week and think who is under 
there and what are they getting ready to do. Call me paranoid, 
but if we are not careful, something could happen.
    Mr. Plavin, in your written statement you discussed the 
need for DHS to involve airports early and intensively in 
designing the basic building blocks of the existing process 
because this will be a much greater challenge to the entry 
process. In your opinion, is DHS making a reasonable effort to 
discover and incorporate this information into its planning for 
the exit function?
    Mr. Plavin. I think DHS has indicated very good faith in 
working with us over an extended period time. My suspicion is 
that they have discovered that the exit process is much more 
difficult than anybody had anticipated, particularly the 
question of implementing the biometric capture as they actually 
check the departure pieces. And part of the problem--what I 
think a lot of newcomers to the airport business find out--is 
that each airport is different; they are laid out differently, 
their traffic patterns, some people are originating at the 
airport, some are connecting through the airport, some are 
English speakers, some are not English speakers. That makes the 
process of automating the process of capturing the exit data 
very much more difficult.
    So I credit DHS with recognizing that this is a complex 
issue. I think the next step in the process is to spend more 
time from the bottom up, working at each airport, to try to 
design that process which makes the most sense for that 
particular kind of facility.
    Mr. Schrock. I was in four or five airports on Monday and I 
looked at each one and there were no two that resemble each 
other. I am sure that has to be part of the problem.
    Mr. Plavin. Right.
    Mr. Schrock. I went into one and it was like an outdoor 
garden--Augusta--nice little airport. But, my Lord, anything 
could be lobed into the air or pushed into there or sent 
through a fence. I think, boy oh boy, that is a disaster 
waiting to happen.
    Mr. Johnson, in your testimony you implied that the US-
VISIT program should not be implemented at any land border 
before it is fully tested in a real world environment. Has the 
Chamber articulated what kind of testing would satisfy this 
requirement?
    Mr. Johnson. No. That is a fair question, Congressman. We 
can certainly offer that to DHS and work with our local 
Chambers, whether it is Nogales or whatever, and construct a 
pilot project like that. I will say that in this regard, 
because I have seen some recent announcements from DHS 
concerning testing of their program, which on its face seemed 
like good news, the implication was that the testing would be 
done in existing lanes at some of these borders; i.e., these 
existing lanes of crossing the border will be taken off-line 
and therefore tested. Well, at the 50 largest land ports at 
least, that would be a disaster. It has to be tested, and I 
know this is not an easy thing to do, but it has to be tested 
off-line under a realistic environment, and we could certainly 
help DHS set that up.
    Mr. Schrock. How could it be realistic, though, if it was 
off-line? I am not being cynical, I am just trying to 
understand in my mind how it would work.
    Mr. Johnson. You would have to replicate the same kinds of 
numbers of people at various times of the day and then see how 
quickly the information can be processed, the fingerprints 
taken, etc. I am not saying it would be cheap. This is an 
expensive process and there is a lot at stake and there is 
really no room for error.
    Mr. Schrock. September 11 was not cheap either.
    Mr. Johnson. No, it certainly was not. Right.
    Mr. Schrock. Ms. Vaughan, is it your opinion that the VISIT 
program can have a positive impact on U.S. commercial and 
travel sectors? And what benefits will be gained from a fully 
functioning VISIT system? I am guessing there is not a problem 
now, but I am wondering what your thoughts are on that.
    Ms. Vaughan. I do think that business interests have 
something to gain when we have safe, secure travel that makes 
an effort to meet the needs of businesses through programs like 
pre-clearance, trusted traveler, and so on, as long as we do 
not compromise security. I think industry, especially the 
travel industry, for example, has the most to lose if another 
attack were ever to occur and if people begin to perceive that 
travel is unsafe.
    Mr. Schrock. Yes. That was a huge problem after September 
11. Thank you, Mr. Chairman. My time is almost up so I will 
yield.
    Chairman Tom Davis. Thank you very much. Mr. Ruppersberger.
    Mr. Ruppersberger. Just on the issue that I raised before, 
I will give you the opportunity from the Chamber point of view, 
our experience at BWI Airport. It works very well. I think one 
of the reasons is the cooperation between the Homeland Security 
and the airport and having the right personnel there. The 
personnel are there to help and to assist individuals and 
individuals who do not speak the language. So far, there have 
been no complaints from the airlines or any of the people 
involved. I would think that is a good program. I am wondering 
whether the position of the Chamber would be to use that as a 
model to move forward.
    Mr. Johnson. Well Congressman, we have not heard of 
complaints either. In fact, putting exit aside in which there 
are serious concerns about when you exit and you do not receive 
a slip of paper that says you exited properly, and then what 
happens when you come back into the country and you are met by 
a border guard who says, well, our records show you never 
exited the country and so you are denied entry, putting that 
aside, you are right. But my point earlier was that the 
airports are the airports and the land borders are the land 
borders and they are apples and oranges. I think it is 
dangerous to extrapolate too much from the success we have had 
thus far in a low-traffic environment, as Congresswoman Norton 
pointed out, and say it seems to be working well at BWI and so 
let's do it at Nogales, or Douglas, AZ, or Ote Mesa. They are 
worlds apart. And I think to the extent that, Mr. Chairman, 
this committee could hold a field hearing at some of the border 
towns and visit with some of these people who deal with these 
realities, it would be very, very helpful.
    Mr. Ruppersberger. They are not denying on reentry, just 
dealing with the issue as far as reentry is concerned. But I 
would think even the people coming to the United States of 
America for business or for whatever reason would want to have 
a safe environment. That is an extremely important issue to 
what we are dealing with. If, in fact, we have another 
terrorist attack using airplanes, I do not know what it would 
do to the airline industry.
    Mr. Johnson. I agree, Congressman, let me clarify. The U.S. 
Chamber of Commerce supported the creation of the Department of 
Homeland Security. We key-voted the legislation in the House 
and the Senate. But there is a need to also keep commerce 
moving in this country and we need to try and seek a balance. 
And it is a mandate in the Department of Homeland Security's 
mission statement that it protect the national security of this 
country and the economic security. So the Department is charged 
with looking at all these factors and, in its wisdom, balancing 
them.
    Mr. Ruppersberger. Like most programs in management, it 
starts at the top. If you are holding people accountable for 
their performance, you evaluate the issue and you provide the 
proper resources, which includes personnel, the program usually 
works.
    Mr. Johnson. Right. Resources is a huge question here.
    Mr. Plavin. Mr. Chairman, if I may.
    Chairman Tom Davis. You may. Go ahead.
    Mr. Plavin. I think I would like to add something as well. 
The issue about the success of the program at BWI should, I 
think, be understood in context. The program has been 
implemented on the entry side at about 115 airports and 
seaports. But is the only place where we have actually begun an 
experiment with how to capture data biometrically on the exit 
process. Unfortunately, part of the process is we really have 
no way of knowing how much of the exit process we are capturing 
because of where that capture is being placed. We do not know 
how many people are missing it. We do not know how many people 
are departing without checking in with it. So our point is, it 
may not be interfering with the process, it may not be 
interfering with how people move through the system, but we 
really do not have any way of knowing whether in fact it is 
being effective in doing what it is designed to do.
    Mr. Ruppersberger. Are you familiar with the helper program 
that is being used there?
    Mr. Plavin. Yes, I am.
    Mr. Ruppersberger. What is your opinion of that program?
    Mr. Plavin. I think it is an excellent program. I think it 
has worked well to help people who are baffled by it. But, 
again, what we do not know is how many people are not really 
taking advantage of that process and in fact registering that 
they have left the country. A concern that we have is that if 
we do not know the answer to that, then we will not know when 
people try to reenter whether they are legitimate reentries or 
whether they have actually violated their visa in a prior stay.
    Mr. Ruppersberger. Right. OK.
    Chairman Tom Davis. Thank you. Mr. Plavin, let me start 
with you. In your testimony, you note that DHS should plan to 
add significant numbers of staff at airports during peak travel 
periods in order to avoid long lines and overcrowding 
facilities for all arriving travelers. Can you expand on this, 
and do you have any statistics that would back this up at this 
point? You heard the testimony previously to this in terms of 
their expectation. Obviously, this is of concern to the 
committee.
    Mr. Plavin. Yes. Thank you, Mr. Chairman. The history of 
this goes back a long way and it goes back way before September 
11 and way before the creation of the Department. For many, 
many years, large airport ports of entry have experienced many 
times during the peak season when their arrival halls are so 
overflowing that you have had to keep all passengers on 
arriving aircraft because there was no room for them in the 
arrivals hall. We have now added by the US-VISIT estimate, 
something like 10 or 15 seconds to each transaction on an 
arriving passenger in order to capture their fingerprint and 
their facial recognition profile. You add that to the fact that 
we are talking about big arrivals halls processing maybe 4,000 
or 5,000 passengers an hour today, sometimes with success, 
sometimes without success.
    So our concern is over two issues. One is to be sure that 
the entry process is properly staffed, and also that we are not 
making it worse by the addition of the biometric capture. We 
need the additional people to be sure that we are not making 
the wait so long that we are discouraging people from coming to 
the country.
    Chairman Tom Davis. Mr. Johnson, in your written testimony, 
you focus a great deal on the potential damage that can result 
from improper implementation of the US-VISIT program. It is 
clear that the U.S. border as it functions today is neither 
effective to secure the Nation nor to promote free movement. 
People sit in their car and they wait in line for a long time. 
Further, visitors overstay their visas with little or no 
concern that the government will ever take notice of their 
violation. This is why DHS was created in the first place. Do 
you think DHS even in its first year has been an improvement 
over the mix of agencies that had jurisdiction over the borders 
in the past? Do you have any opinion on that?
    Mr. Johnson. Yes. Obviously, there is that syndrome of 
trying to create a new system while reorganizing the old one. 
But as you well know, there were many, many complaints about 
INS prior to the creation of DHS. It is hard to quantify it. I 
would say there have been some improvements in that area. 
Considering the panoply of agencies that were absorbed, we 
have, I think, a more definite number of people we know who to 
go talk to to try and make our views known. And there are some 
startup issues. But overall, I think it has been an improvement 
but there is a long ways to go. I would say that DHS has ramped 
up its outreach efforts to the business community and I am sure 
others, which has been very helpful to us of course.
    Chairman Tom Davis. OK. Ms. Vaughan, in your written 
testimony you note that at the current time we are operating a 
massive temporary entry system, admitting almost 190 million 
temporary visitors every year, with almost no information as to 
the soundness of our visa issuance and admission decisions. Do 
you see DHS moving in the right direction in their attempt to 
balance the needs of security and commerce?
    Ms. Vaughan. I do. I was actually thrilled to hear that DHS 
has started to implement the arrival/departure information 
system, for example, which is a way of capturing the exit 
information for a lot of the travelers without having to go 
biometric yet or having to figure out how to install a scanner 
for travelers leaving at every airport at every departure 
situation. So that we are at least capturing some information 
and can start to learn which kinds of travelers are the 
problems and, indeed, what the scale of the problem truly is.
    We have not had any kind of report on overstays other than 
a guess at the total number of overstays in more than 10 years. 
So now at least we can start to work with real information to 
try to impose some quality control on our decisions. I think 
that not only helps us get a grip on the overstay problem and 
enforcement, but also benefits legitimate travelers because 
then we are not wasting time scrutinizing people who may not 
need to be scrutinized so closely.
    Chairman Tom Davis. You also state in your written 
testimony that at this time the US-VISIT program does not 
intend to include Mexican laser visa holders, and that since 
2001, all border crossing cards have included biometric 
features. In your opinion, could these cards be adopted to 
serve the identification and authentication functions of US-
VISIT at the southern border?
    Ms. Vaughan. Yes. It is hard for me understand why they 
have not been yet. Part of the problem is that not every port 
of entry has a scanner to read the cards. But as I said, we 
know that there is a serious problem in misuse of the cards and 
even a small-scale program to try to begin to get a handle on 
how the cards are being used indicates that there is a problem. 
We are not sure exactly how many cards exist, but it is 
somewhere between 4 and 8 million, we think. And yet from the 
information provided today by DHS, there is something like 104 
million crossings with those cards, which, if you do the math, 
tells you that every person is crossing every couple of days on 
one of these cards, which leads you to believe there may be 
some misuse of them or every single person who has one is 
coming up a lot, either doing quite a lot of business or 
perhaps working or perhaps lending it to someone else.
    Chairman Tom Davis. Thank you very much. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. I was not going to 
ask any questions, but based on the direction some of your 
questions were going and Dutch Ruppersberger's comment on BWI, 
in your written statement, Mr. Plavin, you say that you 
``strongly urge US-VISIT to design its exit procedures to be 
conducted at the airport departure gates.'' In the preliminary 
test at BWI, the exit kiosks I think were placed at the TSA 
screening sites. Why would that not be appropriate for other 
airports as well?
    Mr. Plavin. My understanding of the BWI process is it is 
actually a little bit beyond the security gate, actually in the 
middle of the concourse. I think there are two reasons. No. 1, 
if it is actually integrated into the passenger screening 
process, it adds a significant amount of time to the line for 
everyone on the line. So that is one of the reasons why I think 
the CB people decided to push it back away from the security 
piece. But in doing so, either one of those alternatives does 
not allow you to capture people who are actually arriving at 
the airport on a connecting flight.
    Mr. Schrock. What kind of grief is it causing the TSA 
people at BWI?
    Mr. Plavin. In the way it was implemented at BWI, my 
understanding is that it has not really caused TSA very much 
grief because it is sufficiently far enough away from the 
security checkpoint that it does not represent an interference 
and US-VISIT has added some people to assist people in the use 
of the kiosk.
    Mr. Schrock. When you say placed near the TSA screening 
site, it could be 50, 60, 100 feet away?
    Mr. Plavin. Yes. Somewhere within 50, 60 feet. Right.
    Mr. Schrock. OK. So it is not right there with that 
complex. OK. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. I want to thank 
our panel. Let me just note, this will be the largest 
procurement this new Department has put together. There is a 
very high expectation for it. We have stayed away from the 
intricacies of the procurement itself, but I want to make it 
clear we are going to continue to look very carefully at this 
as it moves through the process. Your comments have been very 
helpful to that end. We appreciate all of you taking the time 
to appear with us today.
    I am going to keep the record open for a week to allow the 
witnesses to include any other information that may occur to 
them in the record. This hearing is adjourned.
    [Whereupon, at 4 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Dan Burton, Hon. Elijah E. 
Cummings, Hon. Carolyn B. Maloney, Hon. C.A. Dutch 
Ruppersberger, and Hon. Edolphus Towns and additional 
information submitted for the hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T4170.043

[GRAPHIC] [TIFF OMITTED] T4170.044

[GRAPHIC] [TIFF OMITTED] T4170.045

[GRAPHIC] [TIFF OMITTED] T4170.046

[GRAPHIC] [TIFF OMITTED] T4170.107

[GRAPHIC] [TIFF OMITTED] T4170.108

[GRAPHIC] [TIFF OMITTED] T4170.109

[GRAPHIC] [TIFF OMITTED] T4170.110

[GRAPHIC] [TIFF OMITTED] T4170.111

[GRAPHIC] [TIFF OMITTED] T4170.112

[GRAPHIC] [TIFF OMITTED] T4170.113

[GRAPHIC] [TIFF OMITTED] T4170.114

[GRAPHIC] [TIFF OMITTED] T4170.115

[GRAPHIC] [TIFF OMITTED] T4170.116

[GRAPHIC] [TIFF OMITTED] T4170.117

[GRAPHIC] [TIFF OMITTED] T4170.118

[GRAPHIC] [TIFF OMITTED] T4170.119

[GRAPHIC] [TIFF OMITTED] T4170.120

[GRAPHIC] [TIFF OMITTED] T4170.121

[GRAPHIC] [TIFF OMITTED] T4170.122

[GRAPHIC] [TIFF OMITTED] T4170.123

[GRAPHIC] [TIFF OMITTED] T4170.124

[GRAPHIC] [TIFF OMITTED] T4170.125

[GRAPHIC] [TIFF OMITTED] T4170.126

[GRAPHIC] [TIFF OMITTED] T4170.127

[GRAPHIC] [TIFF OMITTED] T4170.128

[GRAPHIC] [TIFF OMITTED] T4170.129

[GRAPHIC] [TIFF OMITTED] T4170.130

[GRAPHIC] [TIFF OMITTED] T4170.131

[GRAPHIC] [TIFF OMITTED] T4170.132

[GRAPHIC] [TIFF OMITTED] T4170.133

[GRAPHIC] [TIFF OMITTED] T4170.134

[GRAPHIC] [TIFF OMITTED] T4170.135

[GRAPHIC] [TIFF OMITTED] T4170.136

[GRAPHIC] [TIFF OMITTED] T4170.137

[GRAPHIC] [TIFF OMITTED] T4170.138

[GRAPHIC] [TIFF OMITTED] T4170.139

[GRAPHIC] [TIFF OMITTED] T4170.140

[GRAPHIC] [TIFF OMITTED] T4170.141

[GRAPHIC] [TIFF OMITTED] T4170.142

[GRAPHIC] [TIFF OMITTED] T4170.143

[GRAPHIC] [TIFF OMITTED] T4170.150

[GRAPHIC] [TIFF OMITTED] T4170.151

[GRAPHIC] [TIFF OMITTED] T4170.152

[GRAPHIC] [TIFF OMITTED] T4170.153

[GRAPHIC] [TIFF OMITTED] T4170.154

[GRAPHIC] [TIFF OMITTED] T4170.155

[GRAPHIC] [TIFF OMITTED] T4170.156

[GRAPHIC] [TIFF OMITTED] T4170.157

[GRAPHIC] [TIFF OMITTED] T4170.158

[GRAPHIC] [TIFF OMITTED] T4170.159

[GRAPHIC] [TIFF OMITTED] T4170.160

[GRAPHIC] [TIFF OMITTED] T4170.161

[GRAPHIC] [TIFF OMITTED] T4170.162

[GRAPHIC] [TIFF OMITTED] T4170.163

[GRAPHIC] [TIFF OMITTED] T4170.164

[GRAPHIC] [TIFF OMITTED] T4170.165

[GRAPHIC] [TIFF OMITTED] T4170.166

                                 <all>

</pre></body></html>
